                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A12080056                                                                   Page 1 of 1




                OIG opened this file to determine whether potential plagiarism existed in a Phase I SBIR
         funded proposal. 1 This case was a duplicate entry of another open case.Z

         Therefore, this case is closed with no further action taken.




NS F 01G Form 2 (11102)
